<html>
<title> - THE MILWAUKEE PARENTAL CHOICE PROGRAM: A PIONEER FOR SCHOOL CHOICE PROGRAMS NATIONWIDE</title>
<body><pre>[Senate Hearing 114-460]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-460

                     THE MILWAUKEE PARENTAL CHOICE
        PROGRAM: A PIONEER FOR SCHOOL CHOICE PROGRAMS NATIONWIDE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             JULY 20, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
        
        
        
        
        
        
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
        
        
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   
                                   

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-259 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001     
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
                       Courtney J. Allen, Counsel
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
Prepared statements:
    Senator Johnson..............................................    37

                                WITNESS
                         Monday, July 20, 2015

Justice Shorter, Former MPCP Student and Graduate of Messmer High 
  School, Washington, D.C........................................     4
Diana Lopez, Former MPCP Student and Graduate of St. Anthony High 
  School, Milwaukee, WI..........................................     6
Brother Robert Smith, Former Principal, Messmer High School, 
  Milwaukee, WI..................................................     8
John F. Witte, Professor Emeritus, University of Wisconsin-
  Madision.......................................................     9
Richard D. Komer, Senior Attorney, Institute for Justice.........    12
Henry Tyson, Principal, St. Marcus Lutheran School, Milwaukee, WI    15

                     Alphabetical List of Witnesses

Komer, Richard D.:
    Testimony....................................................    12
    Prepared statement...........................................    81
Lopez, Diana:
    Testimony....................................................     6
    Prepared statement...........................................    41
Shorter, Justice:
    Testimony....................................................     4
    Prepared statement...........................................    39
Smith, Brother Robert:
    Testimony....................................................     8
    Prepared statement...........................................    43
Tyson, Henry:
    Testimony....................................................    15
Witte, John F.:
    Testimony....................................................     9
    Prepared statement...........................................    45

                                APPENDIX

Statements submitted for the Record from:
    American Association of School Administrators................    95
    American Association of University Women.....................    97
    American Federation of Teachers..............................    99
    Americans United.............................................   101
    Baptist Joint Committee......................................   106
    Disability Rights Wisconsin..................................   107
    The Institute for Science and Human Values...................   109
    Erin Miller..................................................   114
    National Association of Secondary School Principals..........   116
    The National Coalition for Public Education..................   118
    David Pinno..................................................   123
    Cheryle Rebholz..............................................   124
    Secular Coalition for America................................   126
    Stop Special Needs Vouchers Wisconsin........................   129
    Survival Coalition...........................................   131
    Wisconsin Institute for Law and Liberty, Inc.................   133
 
                     THE MILWAUKEE PARENTAL CHOICE
        PROGRAM: A PIONEER FOR SCHOOL CHOICE PROGRAMS NATIONWIDE

                              ----------                              


                         MONDAY, JULY 20, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 5 p.m., at St. 
Marcus Lutheran School, 2215 North Palmer Street, Milwaukee, 
WI, Hon. Ron Johnson, Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Enzi, Ernst, Sasse, 
Carper, McCaskill, Tester, Booker, and Peters.
    Senator Johnson. Good evening. This hearing of the Senate 
Committee on Homeland Security and Governmental Affairs is now 
called to order. I want to thank everybody in the audience for 
taking time out of your busy schedules to attend what I hope to 
be a very informative hearing. I want to thank our witnesses 
for their time and efforts. I have read all of your testimony, 
it's very thoughtful; I think it is going to be very helpful 
and will be informative.
    I certainly want to thank everybody here at St. Marcus. 
Henry Tyson, the Principal, who was very instrumental in 
helping set this thing up. Pastor Mark Jeske whose office I 
invaded, I appreciate that, Pastor. And we have some student 
volunteers, I want to call them up. Joanne, Brielle, Justin, 
Aleshia, Demia and Ambria, thank you all for your help and 
efforts. If you can give them a round of applause, I would 
appreciate it.
    [Applause.]
    Thank you very much. Let me just explain the purpose of 
this hearing. It is really two--I have two main purposes. I 
generally have a written statement, I will enter that into the 
record,\1\ and would just like to speak extemporaneously here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    The Committee on Homeland Security and Governmental Affairs 
has broad jurisdiction in terms of oversight over the entire 
Federal Government. We also have jurisdiction for the District 
of Columbia. I think you may all know that the District of 
Columbia has its own school choice program, it is called the 
D.C. Opportunity Scholarship Program; and that is going to be 
coming up for reauthorization here in September, and that is 
something that my committee is highly interested in. And I 
thought, as we explore that reauthorization, I thought what 
would be a better place than coming here to Milwaukee, 
Wisconsin, which is really sort of the birthplace, the pioneer 
of school choice in the nation.
    So we are really here today to explore the lessons learned 
within the Milwaukee Parental Choice Program (MPCP), which is 
its official name, and certainly give our hats off to people 
like Polly Williams, who is no longer with us; Dr. Howard 
Fuller, who could not be here today; and people like Susan 
George Mitchell. They were so instrumental, with a number of 
people on this panel as well, they were so instrumental in 
pioneering a concept that I do not think anybody, even 
supporters of this program here in Wisconsin, believe that we 
have the perfect model.
    I come from a manufacturing background, a background of 
continuous improvement. You can always improve things. I think 
this is a very sincere attempt to take a look at what has 
worked, what has not worked, and how can we move forward to 
really provide the opportunities that we all seek.
    And maybe that is something of an opening statement I 
should make as well. Regardless of where you are on the 
political spectrum, and I hope we actually have a broad 
spectrum of opinion here in this room today, let us start out 
today's hearing with an area of agreement. That is certainly 
how I would start out my business negotiations in my 30-some 
years in business in the private sector. I will not start out 
negotiating by arguing. I would start out trying to figure out 
all the areas of agreement.
    So here is something we all agree on. We share the same 
goal. We all want a prosperous, a safe and secure Milwaukee, 
Wisconsin, and America. We are concerned about each other. We 
all want every American, every Wisconsinite, every Milwaukeean, 
to have the opportunity to build the life for themselves and 
their family. And let us face it, education is key to accessing 
that opportunity.
    Now, the other part of my jurisdiction of this committee is 
really oversight, as I said, over the District of Columbia. And 
that also is going to be the purpose--I am a little concerned 
that the Department of Justice (DOJ) has been conducting a 4-
year investigation into Wisconsin's Department of Public 
Instruction (DPI) as it relates to their administration of the 
School Choice Program. So we want to explore that, and we have 
a witness that will testify to that.
    Let me just tell you the three basic principles that guide 
my thinking on this subject. I truly believe that America has 
been and should be and will be a land of unlimited opportunity. 
That is the first guiding principle. The second guiding 
principle is I believe every child should have the opportunity 
to access a quality education. And if they are within a system 
that is not serving them well, they ought to have the freedom 
to choose accessing a different system. And, finally, the third 
principle is my unwavering belief, having participated in a 
free market system, in the ability and the benefits of a free 
market system to basically guaranty three things.
    When I was in the plastics business, I would have loved to 
have been a monopolist, nothing could have been easier. But 
because I had to compete in the marketplace, my prices were 
lower, my quality was higher, and my level of customer service 
was also higher. That is the three benefits that the free 
market system guaranties. But if you really want to drive 
quality, if you want a better result, if you want lower costs, 
free market competition actually works. And that is really what 
we are trying to interject with the school choice system. 
Address the basic principle that every child and every parent 
should have the freedom to access a quality education, to 
access that opportunity and, understanding that it is the free 
market that is going to provide better results in the long 
term.
    Now, just so you understand, my own experience, 
involvement, growing up I was educated in both the public 
system and the private system. I went to a Lutheran school, 
Missouri Synod Lutheran School, for about 3 years. Otherwise, 
it is all public education. In terms of my own children, they 
went to both public school as well as private school, the 
Catholic system, in Oshkosh. And it was really when my daughter 
left the Catholic system and went back to Oshkosh North High 
School I was called in by the principal--doing an exit 
interview. And really wanted to find out, why my daughter left. 
And that began my involvement in the President's Advisory 
Council really trying to do everything I could to help the 
Catholic school system in Oshkosh survive financially. It is 
always a struggle, it is a real struggle for private 
institutions. But just so we had a private, competitive model 
or competitive alternative to the public school system which 
was really quite good in Oshkosh as well.
    And then my involvement with the Catholic school system led 
to my becoming the business co-chair of the Partners in 
Education Council of our chamber, where we had all the 
stakeholders. And so I have really been involved in a very 
robust fashion for about 6 or 7 years prior to my deciding to 
run for U.S. Senate. So this issue is very dear to my heart 
because it is such a basic and fundamental need.
    So with that, I think we have really assembled a pretty 
good set of witnesses. I will briefly identify who we have; and 
before they testify, I will give you a more robust 
introduction. But we have Ms. Justice Shorter, who is a 
graduate of Messmer High School. We have Brother Robert Smith, 
who was President and Principal of Messmer High School. We have 
Diana Lopez, who is a graduate of St. Anthony's. We have Dr. 
John Witte who is pretty much the knowledge expert in 
conducting studies on trying to evaluate, exactly how 
successful the school choice program is. And then we have 
Richard Komer who is a Senior Attorney at the Institute of 
Justice.
    So with that, I will say that when we conclude our hearing, 
if we have time--I have told St. Marcus that I will not invade 
their space for too long--we will probably have an open mic and 
allow members of the audience to come in here and make a 2-
minute comment to also be involved in this process; and we will 
also hold the record open for additional testimony or written 
comments you also want to make into the Senate hearing.
    So with that, it is the custom of this Senate committee to 
swear in witnesses. And I would also ask Mr. Henry Tyson to 
stand as well because we may take some testimony from him later 
on. So if you all will stand and raise your right hand.
    [Witnesses sworn by Senator Johnson.]
    Our first witness will be Ms. Justice Shorter. Ms. Shorter 
is a graduate of Messmer High School and a former participant 
in the Milwaukee Parental Choice Program. Ms. Shorter went on 
to receive a Bachelor of Arts Degree in Journalism from 
Marquette University, and is an August 2015 candidate for a 
Master of Arts Degree in Sustainable Development, International 
Policy and Management from the School of International Training 
(SIT) Graduate Institute in Washington, D.C. Ms. Shorter.

   TESTIMONY OF JUSTICE SHORTER,\1\ FORMER MPCP STUDENT AND 
       GRADUATE OF MESSMER HIGH SCHOOL, WASHINGTON, D.C.

    Ms. Shorter. Good evening, everyone. I am a bit under the 
weather today. I will be reciting my Statement completely from 
memory, so please bear with me. I thank you in advance for your 
patience and your understanding.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Shorter appears in the Appendix 
on page 39.
---------------------------------------------------------------------------
    My educational experiences have taught me the importance of 
capacity, clarity and equity. In the fall of 2004, my sight 
began to worsen; and I realized that for the foreseeable 
future, I would be recognized as someone who was legally blind. 
At the time, I was already enrolled in the Parental Choice 
Program as a student at Messmer Catholic High School, a place 
where I was surrounded by caring and committed individuals who 
wanted to ensure that I would be able to succeed academically.
    Nevertheless, neither my family nor Messmer could 
financially afford to ensure that I would be able to receive 
all of the accommodations to support my educational endeavors. 
My mother and I, therefore, needed to research resources; and 
we independently sought out funding from private donors. 
Thankfully, I was able to reconnect with a former mentor who 
shared my story with a foundation which provided me with 
additional scholarships. We were able to use that funding to 
purchase several pieces of assistive technology.
    Now, that technology coupled with the love, support, 
attention and time that I received from the staff at Messmer 
allowed me to truly thrive and excel academically in each of my 
courses. Messmer also was later able to secure financial 
assistance from donors which has immensely enhanced my 
educational pursuits as well as the access that I had to 
adequate accommodations.
    After graduating from Messmer, I went on to Marquette 
University where I earned my Bachelor's Degree in Journalism 
with minors in Justice and Peace Studies as well as 
entrepreneurship.
    During my time as an undergrad, I studied abroad in 
Capetown, South Africa, where I focused on community 
development and social entrepreneurship, as well as in Uganda 
and Rwanda where I studied peace and post-conflict 
reconciliation. In one month, the next month, I will officially 
earn my Master's Degree in Sustainable Development with an 
emphasis on international policy and management from SIT 
Graduate Institute in Washington, D.C.
    These educational opportunities have reinforced my belief 
in capacity, clarity and equity. First, capacity. My family, 
the staff at Messmer, my mentors, my supporters, all firmly 
believe in my capacity to compete academically and to concur 
seemingly insurmountable odds. Students with disabilities can 
indeed achieve their academic aspirations. We have the capacity 
to contribute to classrooms, communities, the city of 
Milwaukee, the State of Wisconsin, the United States of 
America, as well as the rest of the world.
    Second, clarity. Initially my mother and I were quite 
confused on where to go and what to do concerning educational 
issues associated with my visual impairment. Students with 
disabilities and their families must be properly informed on 
their rights as well as the educational options. I believe that 
the Department of Public Instruction should indeed provide all 
schools participating in the Parental Choice Program with the 
information that they need to raise awareness amongst parents 
about their educational choices as well as all available 
resources for students with disabilities.
    Last, equity. While participating in the Parental Choice 
Program, I received the same voucher as all students including 
those without disabilities which did not fully account for the 
increased expenses associated with my visual impairment, which 
is why we had to seek out additional funding from outside 
sources. And, thankfully, I was surrounded by great and 
phenomenal individuals who were able to help me navigate that 
process. But not all students have access to that, and I 
believe that they should.
    Consequently, I believe that students with disabilities who 
are voucher recipients should receive equitable access to State 
aid. We have to ensure that the Parental Choice Program fully 
considers and effectively incorporates the additional expenses 
associated with educating students with disabilities. This 
would allow the schools to operate with the security in knowing 
that they would be able to financially support all of the 
reasonable accommodations consistently throughout a child's 
education, especially those children with disabilities.
    To be clear, I agree with the principal premise of the 
Parental Choice Program. We should all be able to make the very 
best choices for ourselves, our families, our future. However, 
the problems with students with disabilities not having access 
to accommodations when attending private schools on vouchers 
funded by the State of Wisconsin must be rectified.
     Schools and parents should be secure in the knowledge that 
funding from the Parental Choice Program will complement rather 
than complicate the educational choices of students with 
disabilities.
    This program clearly has the ability to bring forth 
transformative change in the city of Milwaukee and the State of 
Wisconsin. Moreover, if we focus on capacity, clarity and 
equity, it has even greater potential to serve as a model of 
what a State of dedicated supporters, parents, educators and 
legislators can do to ensure the empowerment of students in 
general and students with disabilities in particular. Thank 
you.
    Senator Johnson. Thank you, Ms. Shorter. Our next witness 
will be Diana Lopez. And I would ask that you speak very 
closely into the mic. But let me introduce you first.
    Ms. Lopez is a recent high school graduate of St. Anthony's 
High School in Milwaukee, Wisconsin, where she graduated third 
in her class. She plans to attend Yale University in New Haven, 
Connecticut, this coming fall where she will major in global 
affairs and minor in Arabic. She is also the recipient of the 
full tuition Gates Millennium Scholarship which is earned by 
1,000 minority students around the country. Ms. Lopez.

 TESTIMONY OF DIANA LOPEZ,\1\ FORMER MPCP STUDENT AND GRADUATE 
        OF ST. ANTHONY HIGH SCHOOL, MILWAUKEE, WISCONSIN

    Ms. Lopez. Hello. I am Diana Yvette Lopez, and I attended 
St. Anthony's School in Milwaukee, another choice school, from 
the third grade to my high school graduation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Lopez appears in the Appendix on 
page 41.
---------------------------------------------------------------------------
    My whole life has been a series of causes and effects, and 
I know this very well. With this in mind, I knew that in order 
to do well in life and to do what I wanted to do when I grew 
up, I needed to do well in school. I knew that becoming an 
archeologist in Egypt would only be done if I planned it out 
meticulously. So at the age of about nine, I started Googling 
universities that specialized in Egyptology, and I knew that 
from then on I would have to work as hard as I could to be the 
best in middle school and high school.
    But which middle school would prepare me the best for my 
future? Before going to St. Anthony's, I went to a nearby 
public school. Despite being less than 10 minutes apart from 
each other, it felt like a completely different world. At 
public school, I had always questioned why Christmas had to be 
called Xmas, and why I couldn't sing Christmas songs. I felt 
weird that when I was in my community, a largely Hispanic 
community, everything seemed to revolve around going to church. 
But when I went to school, it was nonexistent. When I asked 
about it, I was gently told to let it go. I was frustrated.
    Then one day, my grandma took me to pick up my uncle, only 
4 years older than me, from his school, St. Anthony's. There I 
saw a multitude of kids dressed in fancy uniforms and a bunch 
of artwork on the wall like the prep schools I had seen in all 
the movies. On the overhead as I walked in, there were prayers 
and announcements blasting and it just clicked. I called my mom 
from the school office. I would get to dress up in uniforms. 
And by dressing up in the businesslike uniforms they had, I 
would be better prepared for when I had college interviews.
    Middle school was great. I got to learn about so many 
things, and this time I could ask as many questions about any 
religion, not just Catholicism, as I wanted. However, I never 
knew how valuable going to a private school with choice program 
was until I started looking for high schools. I had my sights 
on a school in Bay View here in Milwaukee. It was perfect. They 
taught French, much needed by archeologists, and they had 
computer program classes, something I thought was cool. I 
wanted to go so badly, but the problem was the $12,000 tuition.
    I did everything I could. I applied for scholarship and got 
them all, I started saving my money, and I started promising my 
parents I would pay them back for my tuition once I was rich 
and famous. It just was not meant to be for me. My mom lost her 
job, and my little brother was born. My dad was about to lose 
his job, and we were all living paycheck to paycheck. One day 
they sat me down and told me the reality. And in my mind, my 
whole future just crumbled.
    After I cried for days, I looked for alternatives. In the 
end, I chose to go to St. Anthony's; and because they had the 
choice program, I was able to go at no cost. In the end, I am 
happy I graduated from there because not only did I receive a 
valuable and wholesome education, but I let my parents have 
some breathing space and not panic over paying tuition.
    But, again, actions have consequences. Since I went to St. 
Anthony's, I was able to talk about religion. Many think that 
going to a Catholic school means being oppressed and kept 
thinking inside the box. However, that is not the case. 
Naturally curious, I was able to ask about my religion and ask 
my religion teacher about the differences between the Muslims 
and Christian ideals.
    Suddenly, my dream of becoming an Egyptologist dissipated 
and I became interested in global affairs. What if I had never 
been able to ask about religion? Would I have ever discovered 
my passion? Also, because my parents didn't have to pay for 
tuition, I was able to go to a summer program that revolved 
around international relations. I fell in love, and to this day 
I have not wavered.
    During the summer program, there was a representative from 
Yale who gave a speech and I got in contact with her. Never 
once did I think about going to an Ivy League school. However, 
after talking to her, I was convinced I would try as hard as I 
could to get in. A few months ago, after weeks of grueling 
applications, I discovered that I got into Yale and every other 
school I applied to.
    Now I am going to Yale next fall to study global affairs 
and Arabic. But the point is what if I had never gone to the 
summer program and met the woman from Yale because my parents 
had to pay for tuition. Going to a choice school has opened so 
much for me. I was able to go to March For Life in Washington, 
D.C., this past winter; and I got to see firsthand a political 
movement.
    I have met so many people of the church who have lived all 
over the world and taught me how to speak different phrases in 
different languages and who have time after time reinforced in 
me the idea of curiosity. My teachers care about me, and they 
are incredibly knowledgeable in their fields.
    I hear horror stories about neighboring schools having 
fights every day and teachers that do not care about their 
students. I was never afraid of that happening at St. 
Anthony's. I was able to get the same quality education as 
someone of a higher socioeconomic standing without burdening my 
parents and sacrificing their peace of mind.
    So to those who are thinking about signing your kids up for 
a choice school, think about the consequences of your actions. 
You are sending your child to a school where they do not have 
to worry about negligent teachers or fights every day, where 
they can ask the questions they want, and where you can rest 
assured that they are receiving a quality education.
    To the School Choice Program, I want to thank you for 
giving me the opportunity to ask questions, for giving low 
income families like my own a chance to receive a peace of mind 
after being that one step ahead in the road to my future. I 
hope to make you proud.
    Senator Johnson. Thank you, Ms. Lopez. Our next witness is 
Brother Robert Smith. Brother Smith was the president and 
principal of Messmer Catholic Schools for 26 years. While 
leading Messmer Catholic Schools, Brother Smith helped create 
the first independent K through 12 Catholic school system in 
the archdiocese in Milwaukee, increase student enrollment at 
the Messmer High School from 130 to over 700 students, renovate 
and build additions to two school campuses, and raise over $100 
million in student scholarships. Brother Smith.

TESTIMONY OF BROTHER ROBERT SMITH,\1\ FORMER PRINCIPAL, MESSMER 
               HIGH SCHOOL, MILWAUKEE, WISCONSIN

    Brother Smith. Thank you very much, Senator Johnson. Good 
evening, everyone. I am happy to be here. And I hope you are 
too.
---------------------------------------------------------------------------
    \1\ The prepared statement of Brother Smith appears in the Appendix 
on page 43.
---------------------------------------------------------------------------
    Back during the times of the suffragette and abolitionist 
movements, there was a woman by the name of Sojourner Truth who 
freed many slaves, worked harder than most men, and wrote a 
very famous speech titled ``Ain't I A Woman.'' Sojourner Truth 
was illiterate, spoke broken Dutch, yet she met two Presidents 
of the United States and was a great preacher who memorized the 
bible.
    She was invited to come up north to preach at a church; and 
a group of ministers heard about it and sent word down and they 
said: You tell that woman if she comes up here to preach, we 
gonna burn down the church. And in her broken Dutch, Sojourner 
Truth sent word back: You tell them men that if they burn down 
the church, ol' Sojourner gonna preach from on top of the 
ashes.
    Tonight we are talking from on top of the ashes. Messmer 
High School in 1984 was closed. It was reopened by a group of 
folks like you, parents and guardians who want a high quality 
school, a Catholic school, in the inner city of Milwaukee. What 
Henry and others have done here, those young ladies coming in 
nicely dressed, articulate, who shook your hand and looked you 
in the eye, are poor kids who have the ability like Sojourner, 
like Diana, like Justice, to create dreams that will lead the 
city, State, country and world.
    All they need is a chance. And that is what the choice 
program was all about. There is no magic, there is no panacea 
about it. It is hard work, it is sacrifice, it is trusting them 
and trusting their parents and guardians to choose what school 
they want their children to attend. And that includes schools 
of every faith. It includes cyber schools, it includes home 
schooling, it includes public schools. All of that is school 
choice.
    What has angered me over the years are some of the things 
that get said that are not misconceptions or mistakes, they are 
flat out lies. To say that private and religious schools do not 
educate students with disabilities is flat out wrong and has 
been wrong for decades. If you do not believe me, there is a 
book that you can get on eBay titled The Three Archbishops 
written in the 1920s. In that book, Archbishop Sebastian 
Messmer says: Take our Catholic school students, test them; if 
they do as well or better than the public students, then let 
the money follow the student.
    Go and look at yearbooks of religious schools back in the 
1930s, 1940s and 1950s. You will see seeing dogs, Braille 
machines, that were paid for by the religious schools. They did 
not get reimbursed by anybody. They did it because they cared 
about the education of the students.
     At the end of the day, I do not care where a kid goes to 
school. And I have said that for decades. What I care about is 
that they and their parents and guardians get to choose a high 
quality school which can include a school of faith.
    When I hear people talking about, well, we care about our 
kids and education, I expect them to be talking about all kids 
in the State. See, the choice program in Milwaukee started with 
under a thousand students. In 1998, we added religious schools. 
Today we have over 22,000 students in Wisconsin. But we were 
the oldest and biggest school system for years. Today there are 
27 States in this country with choice programs. That is the 
miracle. And that is the key to the future.
    Before I got into education here, I came from Detroit, 
Michigan. And I was a parole agent. I got burned out from 
watching people go in and out of prison. There were three 
things that were common. No. 1, most of the people coming in or 
out of prison were dropouts. No. 2, they had drug or alcohol 
problems. And No. 3, they had at or below a third grade reading 
level. So anybody that does not understand that education and a 
bright future do not walk on the same line is missing a lot.
    We need good schools for everyone. And when I talk about 
education, I am talking about public schools. There are 
excellent public schools in Milwaukee and around this country. 
But we need people to be open to educating all kids in all 
families and let the parents and guardians and students make 
those choices. Thank you.
     Senator Johnson. Thank you, Brother Bob.
     The next witness is Dr. John Witte. Dr. Witte is a 
Professor Emeritus of Political Science and Public Affairs at 
the University of Wisconsin-Madison, Robert M. LaFollette 
School of Public Affairs.
     Dr. Witte's research has focused on tax policy, politics 
and education, including school choice, vouchers and charter 
schools. Dr. Witte was the principal investigator for the 
School Choice Demonstration Project (SCDP) which studied the 
longitudinal effects of the Milwaukee Parental School Choice 
Program. Dr. Witte.

   TESTIMONY OF JOHN F. WITTE, PH.D.,\1\ PROFESSOR EMERITUS, 
                UNIVERSITY OF WISCONSIN-MADISON

    Dr. Witte. Well, thank you, Senator. And it is nice to be 
back here in Milwaukee. It has been a long time since I have 
been here. I was actually born here in 1946, and we left here 
in 1951 we claim because the schools were so rotten. Was not 
true.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Witte appears in the Appendix on 
page 45.
---------------------------------------------------------------------------
    My career has been studying the voucher program, twice. Two 
5-year stints, from 1990 to 1996, and then from 2006 to 2012. 
And I have taken the opportunity that was offered me here for 
this testimony to write a long paper this last week comparing 
those two. We have never looked at both of those studies 
together, we have looked at them separately.
    So I want to give you a combination here of what happens. I 
am just going to say what everybody wants to know. Did it work 
and what worked? OK. And then I am going to give you my 
normative perspective and it will be my own values, and I 
realize there is a lot of room for other values involved in 
this because I am a little bit concerned about the direction of 
the voucher program today.
    First of all, test scores. Everybody wants test scores, 
everybody complains about test scores; but boy, they sit up 
straight when you start talking about them. I make my living 
doing it, modeling it, doing everything else, and I am very 
suspicious of them. They have a lot of measurement error, a lot 
of problems with test scores. But the test score results have 
been flat in both times. There's complications that I could go 
into later; but more or less we have found out that the voucher 
program and comparison groups in the Milwaukee Public Schools 
(MPS) do about the same on test scores. Sometimes reading is a 
little higher, sometimes math is a little higher. But overall, 
they do about the same. And, again, there's some complications.
    Parental satisfaction, there's other dimensions to what 
qualifies as a good education in what we produce. Parent 
satisfaction and student satisfaction have consistently across 
all 10 years, both the first study and the second study, have 
been positive for the voucher program, and really wildly 
positive in many cases. And one of the interesting things is 
when you ask parents what they are most concerned about in the 
Milwaukee Public Schools and why they go to choice and the 
vouchers, it has to do with a couple of things. The quality of 
education, the quality of teachers, and safety and discipline 
within the schools. Those are the things that they are most 
satisfied with in the private schools, when they come to 
private schools, those three dimensions. So it just flips 
around what they are most concerned about and why they are 
there.
    Student--another thing that we were not able to study the 
first time around, because we did not have the resources, to be 
fully honest about it, and we also only had K-8 schools in the 
first set of schools from 1990 to 1996. This time when we 
began, I insisted that we get enough resources so that we could 
follow kids through graduation. For me, if there's one measure 
of quality of education in America and one thing we should 
focus on, it is graduating from high school. And good things 
happen on average if you graduate from high school; and bad 
things, as Brother Bob said, do not happen when you do not 
graduate from high school.
    We were able to track kids in the graduation and then into 
college, 4-year colleges, and we are still tracking the kids 
that began in 2006. The news is very good here. The graduation 
rates among voucher students are considerably higher than MPS. 
And we have done this very well. It is also important because 
there is very little measurement error actually in graduating 
from high school where there is a lot of measurement error in 
test scores.
    The rates may not seem high; but if you are involved with 
inner city education, you will know. It is between 4 and we 
think closer to 7 percent higher graduation and 4 to 7 percent 
higher attainment in 4-year colleges. They also tend to go to 
better colleges, and we follow them now into their--at the end 
of their sophomore year, and they have a high persistence rate, 
much higher than the average in the schools, and they are 
stretching out over the MPS kids that go to 4-year colleges. 
That is a big, powerful finding, the first one I think for any 
voucher program which they usually do not follow kids as far as 
we have.
    One other thing, there is another type of study that takes 
place within vouchers, and that has to do with what we call 
competition studies. The Senator mentioned this, that is why I 
want to talk about this. Competition studies are basically if 
you have competition from vouchers in an area, do the public 
schools get better? OK. And we measure these a lot of different 
ways.
    There have been four studies in Milwaukee going back to 
1998, actually the first ones, and then our recent one has been 
done in 2009-2010, sorry. All of those studies have been 
positive. There is a spillover effect into the public schools 
that's positive for vouchers. And the more voucher students' 
options there are around, the better the results. OK? They are 
not large, they are not really big, but they are statistically 
significant and they are always positive.
    There have also been a number of studies in Florida that 
found the same thing. So we have a consistent range. Finally, 
one thing that is very important to me and sort of my rub here, 
and Brother Bob mentioned this in the very beginning, when this 
program began, it was to give families that did not have 
opportunities or alternatives in the Milwaukee Public Schools, 
to have an alternative that many middle class white people had. 
And that is to 
leave--if they were not satisfied with their public schools, 
they could either buy private school education or they could 
move to the suburbs, which I have studied here in Milwaukee as 
well, where the schools were much more positive.
    Poor African-American primarily students did not have those 
options, and the voucher program provided those opportunities 
for the first time in many cases. There were no charter schools 
around, remember, at that time. OK? Now, and there is no 
question that over the years these opportunities have been 
extended and there have been many opportunities, the choice 
environment is much more positive today certainly with places 
like Messmer High School or this high school or a number of 
other places in the voucher program, the vast majority of the 
schools in the voucher program, 110 of them. They provide 
choices.
    My problem is that when I was first asked to do this, my 
relatively liberal friends in Madison said you are being 
snookered here. This is not providing opportunities for poor. 
The real intent here is to get the rich people who go to 
private schools to be subsidized. I said I hope that's not the 
case because I am not in favor of subsidizing wealthy people to 
do things.
    I am a little worried now that we are moving in that 
direction, to be honest. I was not in favor of lifting the 
income limit as high as they lifted it. They lifted it to 300 
percent of the poverty line from 175 percent. Now, statewide is 
still at 175. 300 percent of the poverty line to be eligible 
for the voucher program is $70,000, $70,047 a year for a family 
of four. $70,000 gets to be up there pretty high for people to 
buy their own private education. So I am concerned about that. 
To this point, I do not think it is necessarily going to be 
that much of a problem. But if it goes that way, you go to 
what's called a universal voucher program.
    Most people in the United States have always gone to 
private schools for religious reasons. God bless them for that. 
OK. But it is not necessary for me that the government should 
subsidize people that can afford that. If they cannot afford 
it, great, go to religious or nonreligious schools. But if they 
can afford it, we are going to spend all of our money--and I 
think it is going to be drained. I think the potential is to 
drain away the choices for the people that need it the most.
    So that is my only concern. Otherwise, I am very happy to 
be involved with this program all these years. I am just proud 
that I made that decision years ago to do this, and I am proud 
of being friends with Brother Bob. He is not only the greatest 
speaker 20 years ago, I swore I would never follow him on a 
stage again in speaking. He is also one hell of an 
administrator. He built Messmer High School. I was in there, 
the first time we met was in 1991, and there were 100 kids in 
that. And to be honest, he was hanging on like this, like a cat 
hanging onto the wall, because it was coming down. And now that 
school is just magnificent, if you have not been there. And 
also all the other schools that are associated. Thank you.
    Senator Johnson. Thank you, Dr. Witte. Our next witness is 
Richard Komer. Mr. Komer is a senior attorney for the Institute 
For Justice where he litigates school choice cases in Federal 
and State courts. Prior to joining the Institute, Mr. Komer 
worked as a career civil rights lawyer for the Federal 
Government, including the Departments of Education and Justice, 
and at the Equal Employment Opportunity Commission (EEOC). Mr. 
Komer.

 TESTIMONY OF RICHARD KOMER,\1\ SENIOR ATTORNEY, INSTITUTE FOR 
                            JUSTICE

    Mr. Komer. Thank you. It is a great honor to be here today 
for a wide variety of reasons. But I would like to commend the 
Senator for chairing this hearing because the Milwaukee 
Public--Parental Choice Program holds a special place in the 
hearts of all of us who have advocated for some 25 years for 
school choice.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Komer appears in the Appendix on 
page 81.
---------------------------------------------------------------------------
    I work at the Institute For Justice, a public interest law 
firm. And one of the things we do is we specialize in defending 
school choice programs. So our institute defended the Milwaukee 
program first in--well, actually, twice. Both times in State 
court all the way to the Wisconsin Supreme Court where 
fortunately the program was upheld both times.
    School choice is an immensely important issue. But what 
makes it worthwhile for those of us who do that are sharing the 
stage with people like Justice Shorter or Diana Lopez who have 
benefited from the school choice programs that we have defended 
in court.
    For me, coming here is in a sense coming full circle 
because this is literally where modern school choice began, 
with a program that enrolled just over 300 children in I think 
it was seven private schools until one of them dropped out. 
That is pretty small.
    Today, as Brother Bob mentioned, there are 27 States that 
have over 40 school choice programs; and the 300 school 
children in the original program have become 300,000 children 
across the United States.
    This is an enormous success story. But what also has come 
full circle is that my first involvement with the Milwaukee 
Parental Choice Program way back in 1990 was an effort to kill 
the program by overregulation, by Herbert Grover who was the 
then superintendent of public instruction here in Milwaukee, 
who said that the private schools participating in the program 
were de facto public schools and subject to all of the Federal 
civil rights requirements that public schools are subject to.
    This was a transparent effort to kill the program 
politically by forcing private schools out of the program. They 
would not participate if they had to provide all of the same 
services and act like de facto public schools. Because many of 
the Federal regulations, I hate to say this, imposed by various 
Federal agencies are part of why public education is the way it 
is today. And private schools, to offer an actual viable 
alternative, have to be different.
     So that program, Senator Bob Kasten from Milwaukee sent a 
letter to the Department of Education where I was working at 
the time asking whether Herb Grover was right and that the 
program had to act like--the private schools had to be treated 
like public schools. I got the assignment to respond to that. I 
was at the Department of Education Office for Civil Rights. But 
we had a crosscutting task force of the special ed. people, the 
Office of General Counsel (OGC), everyone, to try and 
determine: Are private schools public schools if kids get 
vouchers? And our answer was clear. They are not. They are not 
subject to these laws in the same way that public schools are.
    Well, now, 25 years later, the Justice Department is 
investigating them, PCP, and trying again to say that through 
the Americans With Disabilities Act (ADA), that the private 
schools have to act like the public schools.
    They have done this through trying to force the Department 
of Public Instruction, to basically impose requirements on 
private schools very similar to what Herb Grover tried to do 25 
years ago. This effort is no more well founded legally than the 
original effort was because for a number of reasons. It is 
inconsistent with the Americans With Disabilities Act, it is 
inconsistent with the department's own regulations implementing 
that act, it is inconsistent with the Technical Assistance 
Manual the Department of Justice provides to people as to what 
their regulations mean and what the ADA requires, and it is 
pretty much inconsistent with common sense. Because the rules 
of statutory instruction at bottom are really just 
commonsensical rules. And under the ADA, there are two titles 
relevant to their investigation. Title II applies to public 
entities like DPI. Title III applies to private schools. The 
private schools that participate in the program under Title III 
are subject to a very different legal standard of what 
constitutes discrimination than a public school is. Because 
private schools do not have unlimited access to public 
resources. They have access only to what the parents are 
provided by the program and the parents pay the school in 
exchange for services.
    Now, Title III contains a broad exemption for religious 
schools. That exemption is not an exemption the Department of 
Justice created. It is an exemption the Congress created. And 
the Justice Department does not get to overcome that exemption 
in Title III by saying that DPI has to enforce a different rule 
under Title II.
    I am not going to get any more technical than that. But the 
legal rule is that the specific controls the general. It is not 
complicated when you are interpreting something and something 
is specific. What are the responsibilities of private religious 
schools? They are exempted. You do not get to interpret another 
part and say, oh, no, because Wisconsin is giving money to 
individual families to spend at those schools, suddenly they 
become public schools. That theory was rejected by the 
Wisconsin Supreme Court in the original case here and it should 
be rejected when the Department of Justice tries to impose it.
    This is, unfortunately, part of a pattern because there is 
a second intervention by the same group of the Department of 
Justice, the Civil Rights Division, Economic Opportunities 
Section, which has tried to throw a monkey wrench into 
Louisiana's statewide program which is for students in the 
worst schools in Louisiana. And they have tried by resurrecting 
a school desegregation case to force Louisiana, the State of 
Louisiana, their DPI, to regulate and limit school choice for 
students otherwise eligible for the program on the theory that 
because miniscule numbers of students are leaving supposedly 
integrated public schools for African-American private schools, 
that this is undercutting school desegregation. It is an absurd 
theory. It is so lacking in just basic reasonableness that I do 
not think that the courts are going to let this stand.
    The third thing we have with respect to school choice 
programs is the District of Columbia program. The D.C. 
Opportunity Scholarship Program was modeled consciously on the 
Milwaukee program, as were inner city programs in Cleveland and 
New Orleans. All of these programs are modeled on the success 
here in Milwaukee. And the D.C. program has shown the same 
sorts of success as Dr. Witte has talked about here in 
Milwaukee: improved graduation rates, improved parental 
satisfaction, all, I should add, at considerably less expense 
to the public taxpayer than the public schools these children 
left at their parents' choice.
    Now, the administration, which has been quite enthusiastic 
about school choice when it involves public schools, has 
opposed continuation of the D.C. Opportunity Scholarship 
Program and has tried to cause it to whither on the vine. It 
has only been through the active intervention of this committee 
when it was previously chaired by Senator Joseph Lieberman, a 
democrat from Connecticut, and the Speaker of the House, John 
Boehner, that the D.C. Opportunity Scholarship Program is still 
up and running and serving the thousands of children that it 
does.
    So I would like to just close and, again, thank the Senator 
for holding this hearing, thank him for supporting school 
choice, and hopefully thank him for bringing the hammer down on 
the U.S. Department of Justice. Thank you.
    Senator Johnson. Thank you, Mr. Komer. We also should thank 
Mr. Komer because he cut short a vacation in Maine with his 
family, so he has a little makeup to do there.
    I want to break procedure a little bit. I would like to ask 
Mr. Henry Tyson--is it Doctor?----Mr. Henry Tyson then, the 
principal of St. Marcus. They have been very helpful in 
obviously opening up their school to us here. It's been 
relatively disruptive, but we certainly appreciate it.
    I met with Mr. Tyson earlier today. And I just want him to 
share kind of his thoughts and, the model here of--St. Marcus 
has worked. And, Mr. Tyson, why don't you just go ahead and 
describe that, and we will just have you too share during the 
questioning period. So Mr. Tyson.

                     TESTIMONY OF MR. TYSON

    Mr. Tyson. Thank you, Senator Johnson. Thank you all, 
especially members of the public, for being here tonight and 
showing an interest in this issue. Probably the best way for me 
to do that is to tell St. Marcus's story and how it fits in 
with what parents are looking for in our city.
    This school actually opened its doors in 1875, and by the 
late 1890s was serving 300 children on a relatively ragged 
building that stood on this site until about 2002. In the late 
1960s, this neighborhood was decimated by the riots that took 
place, really centered on North Avenue and King Drive, just to 
our west. And there was white flight and the historical 
Lutheran, white, middle class population fled the city.
    The result of that was that by 1981, the student population 
had shrunk to just 54 children. And at the time, the 
conversation was about whether or not the congregation and the 
school should stay or should it follow the previous student 
body out to the suburbs and elsewhere or just close entirely.
    We got a new pastor in 1980, Pastor Mark Jeske, who along 
with some congregation members worked like crazy to rebirth the 
school and the congregation. Such that by 1997, there were 
about 80 children in the school. And it was that year that the 
voucher program was opened up to parochial schools. St. Marcus 
jumped into the program that year and by 2000 had just about 
100 children in the school. And that brought the old building 
pretty much to capacity.
    So the congregation at that time, in about 2000, recognized 
that there was a huge need in our community. The parents were 
desperate for access to high quality schools. And the school 
building at that time was filled to capacity, so they started a 
five and a half million dollar capital campaign. And in 2003 
were able to open a new school building just on the other side 
of that wall that was designed for 300 children.
    And as they did that, as that school opened in 2003, it was 
accompanied by a very specific vision. And the vision was to 
create the best urban Christian school in America. And combined 
with that vision was a philosophy that was, like most good 
ideas, stolen from the KIPP schools, the national charter 
program, that said we are not going to make excuses, there are 
no excuses for student failure.
    And so the congregation, the staff, came together and said 
what do we need to do to make sure that any child who walks 
through our doors is ultimately successful. And what that meant 
was to extend the school day, it went from 8 until 4:30. We 
needed to implement a Saturday school program, a 4-week summer 
school program. We needed to have evening programs. So for some 
students, we kept them here and we fed them dinner and they 
took care of their homework here at school. And then we 
implemented a nationwide travel program for our middle school 
students so they could see for themselves the incredible 
opportunities that this country offers or should offer to every 
single child.
    The bottom line is the parents loved it. And within 2 years 
of opening the 2003 building, the building was completely full 
and we had a growing waiting list. In response to that waiting 
list, in 2006 we started another capital campaign, which 
resulted in 2011 of the opening of the primary grades building, 
which is behind me, which houses 350 students. And then in 
2013, this room, the Krier Center, to support the primary 
grades building. And then just last year, you would have 
thought if we just kept building we would eventually get to the 
bottom of the waiting list. Well, it just did not happen. And 
the reason it did not happen is because if you are, in 
particular, low income and African-American, in this city you 
are in a world of hurt.
    They recently looked to what they call the 80/80 data, 
which is they looked at all of the schools in our city that are 
80 percent low income and 80 percent African-American. They 
identified 95 schools, public, charter and voucher, serving 
just under 30,000 children with an average reading proficiency 
of under 8 percent. So what we know is that if you are low 
income and African-American in this city, the chances of your 
child being in a high quality school are extremely low.
     So it is no surprise that the parents kept on coming. So 
as it is today, we serve 860 students on two campuses. We 
opened a new campus last year four blocks north of here. That 
campus has a waiting list, and in the fall we hope to build out 
that campus to serve 350 children. We follow to the tee the 
State's random selection process, so we look blindly at all of 
the applicants. Approximately 10 percent of our students have 
formal individual education plan (IEP). It means that they have 
been identified by the district as a student with special 
needs. And yet, as Ms. Shorter clearly articulated, we receive 
zero dollars to meet the special needs of those students beyond 
the $7,200 voucher.
    That creates immense challenges for us. It means we have to 
go out of our way to raise the money to provide the services 
for those students. This coming year, we will have two 
certified special education teachers and a host of other staff 
who support those students with special needs.
    We do track our students for 8 years after they graduate. 
We know that 93 percent graduate high school through a 
traditional high school model. And according to, admittedly 
questionable testing data, we are amongst the highest 
performing schools amongst the 80/80 schools in Milwaukee.
    So the bottom line, as we have heard from Brother Bob and 
others, the bottom line is without schools like St. Marcus and 
St. Anthony's and Messmer, and Atonement, Notre Dame, Nativity 
Jesuit, Garden Homes, the Hope Schools, there would be 
thousands of children who would be trapped in failing schools. 
And so the voucher program has become a lifeline to thousands 
of kids, many of whom have special needs.
    At the end of that, I am compelled to say because we live 
in such a divided city that as a voucher leader and voucher 
advocate, I want to acknowledge that our public schools run 
some fantastic schools, as do our voucher system, and some of 
the very worst schools in our city are voucher schools. And for 
those of you, like me, who are voucher proponents, just as the 
district has to deal with its struggling schools, so have we. 
And the critical need is to get as many high performing schools 
for as many kids as quickly as possible. Thank you.
    Senator Johnson. Thank you, Mr. Tyson. Again, thank you for 
all your efforts here at St. Marcus for making your facility 
available to us.
    I have a host of questions. Let me, before I start asking 
questions, let me just get a sense from the audience, would you 
raise your hand if you would like to take 2 minutes is what we 
will limit a comment to. How many people would be interested in 
that? Because that will govern my--OK, so a reasonable number. 
So I think that we will be able to accommodate that.
    Let me go informal here, and I would like to use first 
names, and I have already said Brother Bob. I would like to 
start with you, Justice. Obviously with somebody with a 
disability that I think we all are very pleased to see you to a 
great extent overcome, can you just talk to us about the 
impediments you faced, both in public as well as in Messmer 
School, with your blindness; and was there a difference, one 
way or the other, between what you experienced in public versus 
private school. And speak very close to the microphone so we 
can hear.
    Ms. Shorter. Is this better?
    Senator Johnson. Yes.
    Ms. Shorter. Yes. OK. I was able to receive, as I said, a 
ton of attention, a ton of time, from the staff members at 
Messmer Catholic High School; and they were later able to 
assist me with also securing additional financial assistance 
which was immensely beneficial.
    However, students with disabilities have to encounter a 
slew of barriers, both formally and informally, both perceived 
and--a whole range of issues that people never take into 
consideration. It takes a community to ensure that these 
students will be able to strive and thrive academically. You 
have to take into consideration the classroom atmosphere, the 
atmosphere of the entire school, the communities that they live 
in, the parents, their families, all of these different 
entities must come together collectively in order to ensure 
that these students have the capacity to succeed.
    I think we have to understand that students with 
disabilities are assets, not liabilities. And we need to 
understand the full potential of these individuals. Had someone 
not seen the capacity that I had, had people not acknowledged 
that, had people not supported that, I would not have been able 
to do half of the things that I have been able to do in my 
short lifetime. I am only 25.
    However, I continue to encounter a number of barriers, even 
in graduate school, even as someone who can clearly articulate 
the things that I need at the age of 25 in graduate school. 
Now, imagine if I was 5 years old or 10 years old or at the 
time 14 years old when my sight initially began to worsen.
    The difficulty in simply acknowledging, for one, what was 
happening to me at the time and, two, what it was that I needed 
in order to succeed, but having individuals around me who could 
recognize the problem, but who can also help me find the 
resources, and not only find that information, but to actually 
access those resources was absolutely imperative.
    Senator Johnson. So did you see--I did not realize, you 
lost your site at about the age of 14, you started losing your 
sight----
    Ms. Shorter. Yes.
    Senator Johnson [continuing]. At the age of 14?
    Ms. Shorter. It began to worsen at 14, yes.
    Senator Johnson. And you were in public school prior to 
that? I mean during that time period or----
    Ms. Shorter. No, I was at Urban Day Middle School, which I 
believe at the time was a charter school. Yes.
    Senator Johnson. But you started accessing the voucher 
system when you started going to Messmer, correct?
    Ms. Shorter. I believe so, yes.
    Senator Johnson. OK. Again, were there--I guess the 
question is really kind of a moot point then, you were sighted 
in charter school and you started losing your sight in----
    Ms. Shorter. When I went to high school, yes. So when I was 
in middle school, I was able to effectively maneuver and 
operate. My vision was not good whatsoever. However, I was not 
in need of many of the resources that were absolutely essential 
once I went to high school because my sight began to worsen 
even more and I could no longer hide it or pretend as if it did 
not exist. It was imperative to my learning.
    Senator Johnson. So can you just tell us a little bit about 
your aspirations. And, again, you have overcome an awful lot 
and you have continued to gain education. Can you just tell us 
really what you plan on doing now with the rest of your life, 
what you aspire to be.
    Ms. Shorter. No pressure there. No. I graduate in August, 
and everyone has been asking me that question. But I am excited 
to continue applying for positions both domestically, 
nationally across the country, as well as internationally.
    I would love to continue working on issues related to 
international policy. During my time in D.C., I have interned 
for World Learning, which is an international non-governmental 
organization (NGO); the Hunger Project, another international 
NGO; as well as Women Enabled International, which focuses on 
protecting the human rights of women and girls with 
disabilities worldwide.
    At present, I am doing an internship for the Department of 
State, their international visitor leadership program, and I am 
developing the disability inclusion guides for host families 
and organizations to use so that when visitors come, they can 
truly access all of the amazing things that America has to 
offer.
    So I will continue to be an advocate for disability issues, 
but that is not the only issue that I will work on. I intend to 
work on a plethora of different issues, whether it relates to 
disability or gender or racial minority issues, LGBC issues, 
and a whole host of issues. So I am hoping to secure employment 
after graduation.
    Senator Johnson. Well, as you realize your aspirations, you 
are going to continue to inspire people. So, again, thank you. 
We wish you all the best.
    Diana, you mentioned uniforms. I thought that was 
interesting. Can you just kind of talk a little bit about what 
wearing a uniform did. I mean, just the effect it had. And, 
again, if you would speak very close to the mic so we can hear 
you.
    Ms. Lopez. OK. So going to a public school, I could wear 
whatever I want. So in the morning when trying to get to school 
on time, it would be what should I wear. And when my parents 
started to lose their jobs, we had to go to the--those centers 
to get clothes. And finding clothes that everyone else wore was 
very difficult. And so I often went to school embarrassed and 
often went home crying and telling my mom why can't you buy me 
new clothes?
    But when I went to St. Anthony's and saw the uniforms, I 
thought that it was going to prepare me for the future. Because 
I had seen how presidents and ministers and everyone wears 
uniforms; and if I wore a uniform, I would have the same type 
of thinking as them. And in that way I would be better prepared 
to do what I wanted to do.
    Senator Johnson. Did you find that was kind of a common 
attitude among your classmates? Did people enjoy wearing 
uniforms? Did they feel it was onerous or--what was the general 
attitude?
    Ms. Lopez. Most of them hated it, but . . .
    Senator Johnson. But they fell into line.
    Ms. Lopez. Yes. After graduating and talking to their 
friends from public schools, they had kind of an appreciation 
that they did not have to wake up and figure out what they were 
going to wear in the morning. Instead they could, figure out 
how their homework was and where to, spend their money instead, 
instead of buying clothes. I think it was the general attitude 
of appreciation that we knew what we were going to wear and we 
did not have to worry about impressing everyone else.
    Senator Johnson. OK. Great. You also mentioned in your 
testimony the word ``safety.'' Can you talk about that, again, 
just--again, I am always looking for comparison, to compare, 
contrast, public versus your experience at St. Anthony's. Can 
you just talk a little bit about that aspect of the choice 
program.
    Ms. Lopez. While at St. Anthony's, I have friends who on 
their phones they would show videos of neighboring high schools 
and the fights that they would have there, and how they would 
be really intense and really violent. And all of us just went 
around the person who had the phone and we all could not 
believe that something like that was happening not that far 
away from us. And we all kind of had this attitude that thank 
God this does not happen here.
    Senator Johnson. Great.
    Brother Bob, I mean, certainly what I saw within the campus 
school system was a pretty nurturing environment. Again, and 
let me say within the Oshkosh school system, which my kids also 
went to, I saw--and being the co-chair of the Department of 
Education Council, I saw dedicated teachers across the board, 
people who were skilled and knew how to educate the kids in 
their community. But I did notice a difference, a more 
nurturing environment, certainly the ability to teach morals 
and values.
    Can you just talk about the environment within your school, 
the extent of parental involvement, and again, any kind of 
comparison of experience that you know about between that and 
the public situation.
    Brother Smith. Sure. I have always, Senator Johnson, been a 
proponent of the Paul Bear Bryant school of education. He was 
the football coach at Alabama. And he began each season by 
telling his players be good or be gone. My belief of every 
educator, every adult in a school building, is you will treat 
every child as if he or she was your own. And if you can't or 
won't do that, then you gotta go. Because parents and guardians 
entrust the most precious thing they have, their children, to 
us. And a frown, a harsh word, ignoring a kid that's trying to 
answer a question or to get a need met, that's a start.
    And, what Justice was saying in answering your question 
about some of the challenges, simple things like winter 
weather, which is unpredictable in Wisconsin. I used to watch 
her out of my window when there was a black ice. And I made our 
buildings and grounds people as well as our former principal, 
Mr. Monday, made sure that that back area was clear and dry so 
that she and other students would not slip. If there was an 
early day of school, we had to make sure that she was able to 
get her ride.
    Schools live by rules. We have an elevator in Messmer. 
Students are not allowed on the elevator. She was allowed on 
the elevator because there are three floors. For testing, the 
tests are done in a certain way. She needed someone to read 
directions or if there were colored pictures, things like that. 
So as an administrator, it is the job of an administrator to 
make sure that everybody else does what they are supposed to do 
beginning with the adults and then with the students. And the 
parents and guardians--and, what Henry said earlier is 
absolutely true. Parents and guardians that I have known in 
this city and across this country want the best for their 
children. They hate nothing more than going to jails and 
prisons and funerals and hospitals, and they expect the 
educators and the other students in schools to treat their 
child as they treat their child. And that's what our jobs are, 
and they start the minute the kids get there to the minute they 
get home.
    Senator Johnson. I want to talk a little bit about parental 
involvement. I am going to transition from you to Dr. Witte 
during this question. But, again, it is my general sense, 
again, having attended as well as sending my kids to both 
systems, that certainly the private school system really 
encourages parental involvement. I guess it's just my anecdotal 
belief that parental involvement made a big difference. I mean, 
can you just talk about, how, to what extent Messmer encouraged 
parental involvement, kind of what your belief was; and then I 
am going to turn it over to Professor Witte, is there any study 
that kind of backs up whatever our beliefs might be. But, 
Brother Bob.
    Brother Smith. Yes. The key, Senator, is we tell students 
that from day one that the adults run this building; and that 
means the faculty, staff and parents. So just as the students 
at St. Marcus were out there greeting every person that walked 
in that door, we teach the students you will treat every person 
with dignity, respect and love, or you gotta go. And it's 
really that simple. Parents and guardians do the same thing. 
And we expect that they will treat the teachers and other staff 
the exact same way, as adults.
    It is irrelevant whether I have a Master's Degree or a high 
school diploma, we are still adults and the education of every 
single student is the responsibility of every single adult. 
Private schools and, in particular, religious schools have a 
lot less money than public schools. We do not have a tax base 
to operate on. Which means there has to be a lot of volunteer 
work, it means tutoring, making sure your students do their 
homework. And it does not matter if you understand trigonometry 
or Spanish, it means that you have a responsibility, whether 
you go to the Khan Academies on the Internet or whether you 
call up another parent and say can you check my child's 
homework, the homework gets checked. So that when that student 
comes to school the next morning, that they come prepared.
    It also means that if you have a problem in your family, 
that there is an illness or a death and you need money, that 
you talk to us. We do not have a lot of stuff, but we can do a 
little. Recently that 11-year-old boy who opened the door, he's 
a student from Burma, and these guys went in and shot the 
father. He was a student at St. Rose/St. Leo. The entire 
Messmer community gathered around as well as Marquette High 
school to help support funeral costs and other costs of that 
family because they are dirt poor. You do it not because you 
have to do, but because you choose to.
    Senator Johnson. You used a word that put a smile on my 
face, ``volunteer.'' We had one of the moms--that was her 
license plate. And she was one heck of a volunteer.
    Dr. Witte, can you just kind of describe any kind of study 
results in terms of parental involvement in education.
    Dr. Witte. Yes. We extensively ask about parental 
involvement, both the beginning in the first wave, first study, 
with what they had in the public schools, and then also to 
compare it to the private schools. And we also asked public 
school parents. And we asked three types of parental 
involvement basically. In organizations in school like parent 
teacher associations (PTAs), in activities in schools such as 
communicating and connecting to teachers and other things, and 
then parental involvement at home. And there are different 
dimensions of all of those, too, so they are very good 
measures.
    And in the first wave of studies, parental involvement was 
higher statistically and considerably higher in the private 
schools than in the public schools; and also higher when the 
people moved from public schools to private schools. The second 
wave of studies, it was higher in the parental activities of 
the school and in belonging to organizations that communicated 
with schools. But the parental involvement was slightly higher 
in the public schools at home. So there was an improvement 
there. And there was quite a change from the earlier period 
than the latter period.
    The other thing I will say about the public schools is WETA 
asked parents to grade their schools, and it's a very common 
question around the country. A through F, right? Just like we 
grade kids and like you will get graded at Yale and like you 
get graded in high schools. So on a four-point scale. And it 
turns out the first time around, the public schools had about a 
2.8 average grade, a little between a B and a C, and 2.7 for 
the private schools. That's because a dimension came here about 
the schools closing. In the first 2 years, it was rocky around 
here in the voucher program because the courts had not yet 
approved it. So people thought it was going to get closed. And 
we had this very bad school, the Juanita Virgil Academy, which 
I can identify because we never got to do a case study of it, 
and it was very--well, that closed in the middle of the school. 
It was a terrible school. We had pictures of kids throwing wet 
toilet paper out of the windows at each other. That's the kind 
of order they had in Juanita Virgil Academy. So it had a bad 
reputation. Then it really picked up that last few years.
    This last time around, the public schools graded out at 
3.0, an easy B, higher, and the private schools at 3.4. One 
other thing that's important about the two waves, it turns out 
that the first wave, which there was about 1,500 students in 
1995, almost all the students were black. OK. 92 percent. OK. 
It was an African-American program. There were no Asian 
students, not a single Asian family that we could identify in 
the program. It's much more diversified now, with many more 
students obviously, 20,000 students here rather than 1,500 at 
the end. And it's 57 percent African-American, 24 percent 
Hispanic, and then the rest is split. And there's 15 percent 
white. And then there's smaller numbers of both Asians and 
Native Americans. So it's a much more diverse program now than 
it was.
    The parents of the private school kids are still poor, 
lower income, than MPS parents. They were both times. But they 
have slightly higher education levels. Not too much the second 
time around, actually. They were very close of parent higher 
education. The first time around, the MPC parents, the public 
choice parents, were considerably lower educated.
    Senator Johnson. Now, having read your testimony, I 
understood most of it, that's the point, I mean, it's very 
complex. I mean, trying to study these, trying to come up with 
some kind of evaluation is necessarily very difficult. But it 
did sound in your testimony that student attainment, graduation 
rates, that you found some real significance there that's been 
somewhat indisputable.
    Dr. Witte. Nobody's disputed it. If anybody quibbles and 
says, well, it's only 4 percent or 5 or 6 or 7 percent, we 
think it's closer to 7, 7 percent jump in graduation is big 
time.
    Senator Johnson. Let me ask you what you mean by that, 
though. Is it you are going from 70 to 77 percent or is it a 
point increase or is it a percentage increase?
    Dr. Witte. It's a percentage increase, and it's going to 
about 75 percent for the kids that are now graduating compared 
to 69 percent. That's the range. Which we didn't make too much 
of because the problem is--if the kids stayed for 4 years in 
the private schools, in other words, they were in the private 
schools in 2006 and they were still in them in 2010, 93 percent 
graduation rate. 93 percent.
    Now, a lot of people think, trick, there's a problem with 
this, and Brother Bob knows this. The first year in high school 
for these kids--we discovered this time around, it did not 
apply to the first group--was very difficult for many kids. 
Because they took them under lottery conditions, and these kids 
were sometimes way behind. The private high schools tend not to 
give grades out free. OK? I do not know how else to say that. 
They have to earn those grades.
    So what happens after the first year, and often the kids 
left the private schools because maybe they only got two 
credits and they needed six because the private schools have 
high graduation rates. Right? High graduation levels. You gotta 
have six credits, 24 credits to graduate in most of these 
schools. So they only got one or two credits after the first 
year. Then what happens is they look around and they say, gee, 
how am I going to graduate on time and they may go back to 
public schools.
    The public schools have a lot of ways of getting through 
that are not quite as rigorous, let me put it that way, as what 
the private high schools are. Now, what the private high 
schools will do, after they have figured this out, of course, 
is they have all kinds of remedial type programs, they have 
summer school in advance for kids coming out of the eighth 
grade, kids got into schools, low test scores, for example, or 
low grades in the middle school, they will require them to go 
to summer school to try to catch them up. They put them in 
smaller classes, they put them in--remember, there's a whole 
series of things that we outline in our reports that the 
schools do to try to solve this problem, but they can't solve 
it all because often the kids come in so far behind.
    Senator Johnson. Thank you. Just one last quick question. 
You mentioned competition studies. Can you elaborate a little 
bit on that. Anything definitive there in terms, does choice--
even at this very minimal level. I need to point that out. 
There's only 3 percent of Wisconsin students K through 12 that 
are actually part of the School Choice Program. Now, that is 
some competition in the public system, but it's pretty minimal 
competition.
    So anyway, what results have you found in terms of 
competition studies?
    Dr. Witte. OK. The competition now is more, Senator, 
because the voucher programs are one thing, but remember we're 
looking at competition with charters.
    Senator Johnson. Correct. That's about 8\1/2\ percent, I 
think, total.
    Dr. Witte. Yes. You have a lot more in charters. Not in all 
these places, because a lot of places like in Oshkosh you may 
not have that many--you have a lot of charters, actually, in 
Oshkosh.
    Senator Johnson. Right.
    Dr. Witte. But in some places you don't, like, I don't 
know, Fort Atkinson where I was raised, we don't have charters.
    Senator Johnson. But surely, even there, it's about 8\1/2\ 
percent of the population. Again, it's competition, but it's 
still under 10 percent.
    Dr. Witte. But wherever it occurs, and it occurs mostly in 
the large cities, it's been positive. And this is really across 
the country. This is not just Milwaukee. This is not just 
Wisconsin. Florida has found four major studies of vouchers 
there, and they have all found competition effects.
    And they do them in different ways. What we did here with 
the last study done by a man named Jay Green, who was working 
with me, they did it very cleverly. They looked at the density 
of charter schools--I mean of voucher schools, in other words, 
how many charter schools are close. The more charter schools 
are close to a public school, the higher the achievement gains 
of the public school.
    Senator Johnson. So, again, I guess you are basically 
confirming what my basic principle would be is competition 
actually works, it drives quality, even at a pretty minimal 
level, because we are talking a pretty minimal level of 
competition. This isn't like it's full competition, this is 
still pretty minimal.
    Dr. Witte. Yes. That's correct. I think that's absolutely 
correct.
    Senator Johnson. Thank you. Mr. Komer, I know opponents 
obviously will talk about public payments or public support for 
religious schools and the separation of church and state. One 
thing I have always thought about is within our university 
system, we have Pell Grants, we have student subsidized loans. 
Is there any legal difference between that type of public 
support for 
potential--for example, Notre Dame or, other religious 
universities, religious high schools or K through 12 or K, 
lower level? And, again, speak right into your microphone.
    Mr. Komer. At this point, since we won a case called Zelman 
versus Simmons-Harris involving the Cleveland scholarship 
program, which was, once again, modeled on Milwaukee, there is 
no legal difference between higher education programs and lower 
education programs. For many years, in trying to explain what 
is school choice, we would always point to these other programs 
at higher education, like Pell Grant programs. And almost every 
State has a Pell Grant-like program of State scholarships that 
have very similar eligibility requirements as the Federal Pell 
Grant program. We use vouchers in housing programs. Section 8 
housing is a voucher program. We have pre-K voucher programs. 
We have childcare voucher programs. It was K-12 education that 
was unique in not having voucher programs and not allowing 
private religious schools to participate on an equal basis.
    The difference, of course, was K-12 education is the only 
place where we provide free public education. And because it 
was free and a monopoly, there were no competitive effects; and 
like any public monopoly or private monopoly, monopolists don't 
like competition, they don't want competition because it allows 
them to be inefficient. It allows them to get away with 
failure. Don't get me started on how public education----
    Senator Johnson. OK. We won't.
    Mr. Komer [continuing]. Requires failure to get more 
funding every year. But it is a system that rewards failure and 
is, just like other systems, based on the ignorance of the 
American public.
    Because if you knew what was being spent on children in the 
public schools per capita, you would be aghast in most States.
    Senator Johnson. Well, let me give you some figures on 
that. In Milwaukee, it's about $12,000 per pupil. In 
Washington, DC, it's $29,000. That's the most recent figure. 
Now, just real quick, I mean, think of if you had 20 students 
and you got $29,000 per student, that's almost $600,000. I 
mean, in the hands of an experienced educator, I think you 
could do a pretty good job educating 20 kids for $600,000.
    But let me ask you, because in your testimony, your written 
testimony, you talked about--I think you raised this issue, 
that with the Department of Justice investigation of with the 
way DPI is administering this program in terms of disability 
discrimination, that would really be more the jurisdiction and 
function of Department of Education, not Department of Justice.
    Can you just talk about that, the appropriateness or the 
legal jurisdiction of the Department of Justice to even be 
pressing this investigation.
    Mr. Komer. Sure. The Americans With Disabilities Act covers 
pretty much everything. But it assigns to eight different areas 
of enforcement, to different Federal agencies. Not 
surprisingly, education is generally assigned to the U.S. 
Department of Education where it's vested in the Office For 
Civil Rights which is when I was at the Office For Civil Rights 
we were answering the Milwaukee question way back in 1990 under 
the Individuals with Disabilities Education Act (IDEA), which 
was a Department of Education program, and under Section 504.
    Now, the IDEA says that for education, you are supposed to 
enforce it the way you do the IDEA in Section 504, which are 
Department of Education responsibilities in education, and 
generally everything education related is supposed to be done 
at the U.S. Department of Education. But in this particular 
case, there was no referral of the complaints that triggered 
this investigation to the U.S. Department of Education which 
has considerable experience with the sort of handicap 
discrimination issues. Instead it was held by the Department of 
Justice with no explanation why.
    And I have no idea why they kept it. It's not really a 
violation of law not to send it to the U.S. Department of 
Education. But it left it in the hands of some people who, 
quite frankly, don't know what the hell they are doing, 
compared to sending it to people who actually generally know 
what they are doing.
    Senator Johnson. We are going to try and get to the bottom 
of that. By the way, we did invite a representative from the 
Department of Justice to testify here and they declined.
    Professor Witte, before--I forgot to ask you a little bit 
about in terms of just macro evaluations. And, from my 
standpoint, for example, the D.C. Opportunity Scholarship 
Program, there's 16,157 thousand [sic] students that have 
applied. There's 6,252 vouchers that are granted. So people are 
applying at 2.5, 2.6 times the rate. So demand is 2.6 higher 
than supply.
    And then, again, how--it's incredibly complex trying to 
evaluate this. I got this little chart from School Choice 
Wisconsin. Obviously an advocate. But I thought this was a 
pretty strong evaluator. As a business person, if I am looking 
at a sales chart that looks like this, and let me just--I know 
it's hard to see. But let me just read off the results here. In 
the year 2000, 8,000 students took advantage of school choice; 
in 2005, it was almost 16,000. By 2010, it was 21,000. Last 
year it was almost 30,000. No matter what your studies say, no 
matter, the controversy over does it do a better job, have 
better educational outcomes, I mean, this is a pretty strong 
indication that the parents and the kids, the customers, 
obviously see value in their voting with their feet by 
accessing and taking advantage of the voucher program.
    Would you kind of agree with that statement?
    Dr. Witte. Yes. I think that 29,000 might be applications. 
Does that----
    Senator Johnson. No. I believe this is total, this is 
Milwaukee, plus Racine, this is the statewide program.
    Dr. Witte. Oh, yes, sure. Yes, let me put it this way. 25 
years ago I started to study choice. And at that time, 
basically there wasn't any choice. I mean, you went where you 
were assigned, and that assignment came because if your address 
was on one side of the street you went to that school, if it 
was on the other side of the street you went to another one. 
And that's still the case in a lot of cases.
    So what's happened in the United States is just 
extraordinary. I mean, now most of the people in Milwaukee 
actually choose a school that's not their neighborhood school. 
Either through a charter school or the Chapter 220 program 
that's still going. That's still going out there. That sends 
kids to the suburbs from the city, or from the voucher program. 
So it's an extraordinary situation that Milwaukee has done. And 
the change over time is just amazing.
    It's actually hard to figure out who is in MPS anymore. 
Because charter schools are in some cases they are on the books 
if they go to the Chapter 220 program, they are still on the 
book at MPS. So it's really kind of difficult to even get the 
numbers of kids. So you have an unbelievably changed 
environment. And, in fact, a lot of the times when kids go back 
to MPS from the private schools, it's because there's no slots, 
they run out of slots at the high school level or even 
sometimes at the middle school level. So there aren't enough 
positions.
    Henry was saying how they are expanding so fast, it's 
amazing what's happening with these schools. And they can't 
keep up, they can't keep up. The good schools can't keep up. 
They can't expand fast enough. And you literally, unless you 
want to go to a virtual world, still bricks and mortar matter. 
And you don't want to have, 50 kids in a classroom to do it. 
Maybe we should go back to that, years ago, the Catholic 
schools had 40 kids in the classroom and they did pretty darn 
well. But, no, it's greatly expanded and that certainly is an 
indication.
    Senator Johnson. So, Mr. Tyson, if you would quick grab the 
mic there. As long as we are talking about waiting lists, just 
real quickly, how--out of a student body of about 800 you said?
    Mr. Tyson. 860.
    Senator Johnson. What's your waiting list?
    Mr. Tyson. It's somewhere around 300, 330.
    Senator Johnson. Almost 35, 40 percent are waiting to get 
into the system. What I am going to do is I am going to ask----
    Dr. Witte. What's Messmer's?
    Brother Smith. It's a good question. I retired in 2012.
    Dr. Witte. So did I.
    Senator Johnson. Do you know what it was then?
    Brother Smith. I'm sorry?
    Senator Johnson. Do you remember what it was then?
    Brother Smith. The high school, probably 150, 200. The 
elementary schools--boy.
    Senator Johnson. Higher? More than that?
    Brother Smith. Yes, it was more than that. I can tell you 
the 
K-4, K-5 and first grade were extremely high, almost two to one 
for every student that was accepted. And there were two classes 
of every grade.
    Senator Johnson. So the demand definitely outstrips the 
supply which, again, if I were judging the success of a 
program, I would say the demand outstripping the supply by that 
much is certainly evaluated.
    What I am going to do because, again, I want to be 
respectful to St. Marcus's time here, is I do want to give 
those audience members a chance to make comments. If you want 
to start lining up, where are we going to set up the 
microphone? And while you are doing that--so if you want to ask 
questions, start lining up over here. And then I am going to 
ask a couple of questions of Mr. Tyson and Brother Bob here as 
well.
    You talked about the individual education plan. Can you 
describe, in the public school system when a child gets an 
individual education plan, then they get the funding to provide 
those services, correct? Can you just give us some sort of 
range of how much additional funds go into a public school 
versus people on vouchers, you get the 7,200 voucher and that's 
it.
    Mr. Tyson. Yes. If I may just dismiss the students, the St. 
Marcus students. You guys are good to go. Some of your parents 
may be waiting. So you can just--nice job, by the way.
    Senator Johnson. Yes, thank you very much.
    [Applause.]
    I love the uniforms.
    Mr. Tyson. Senator, I do not have a real definitive answer 
to that question simply because, as you have stated, in our 
experience when we have those children with special needs, 
there are no dollars. So for us it's a moot point.
    Now, from what I understand, in the public sector, the 
amount of money that is available to educate the child depends 
upon the severity of the need. So if you go to Gaenslen 
Elementary School, MPS, just up the street, absolutely 
phenomenal school with their special needs population. They 
have some kids that have two adults on one child, and it's tens 
of thousands of dollars.
    Senator Johnson. So bottom line, we already have a system 
in the State of Wisconsin to accommodate those disabilities, 
provide the funding to provide the services within the public 
system. That would be I would think pretty transferable, again, 
it's a State issue. Professor Witte.
    Dr. Witte. Yes. We did a report on this. When DPI came out 
a few years ago saying that there were 2 percent or less than 2 
percent of the kids identified in the voucher program whereas 
Milwaukee had 20 percent identified, this means formally have 
an IEA, they have an IEA, right, they have an education plan, 
an IEP. OK. We felt that was wrong and we had some data that 
applied to it. Because we had these kids that were in the 
public school and then switch to the private school.
    And we were able to estimate that in fact the private 
schools were taking care of kids with disabilities at a rate of 
about between 8 and 14 percent depending on how we did it. And 
we also felt that the MPS school with 20 percent were probably 
over-identifying. They were under-identifying in the private 
schools because of two reasons; no money, OK, in some cases 
very severe disabilities that they could not deal with, which 
is true also of the public. And then also there were some 
parents that did not want their children to be identified. They 
were identified in the public system, but they did not want to 
because they lose legal rights when you get identified. And so 
they came to the private schools in some cases because they 
wanted to get help from under. Now, that says a lie. So we felt 
the numbers were really wrong. And we have them in a report, a 
pretty sophisticated report.
    Senator Johnson. So we will close out with two more 
questions, two questions for both Brother Bob as well as Mr. 
Tyson. I want you first to address your accommodation of 
students with disabilities. Brother Bob, you were pretty clear 
in your statement on that earlier. In one of your testimonies, 
one of you reported that the public school system sometimes 
refers students with disabilities.
    So if you can speak to that. And then second--and do it at 
the same time, just the financial challenges of running a 
private school system. I am certainly well aware of that having 
worked to try and keep the Bleward (phonetic) system 
financially solvent. And it's a struggle. It's always going to 
be a struggle.
    But if you can address both those issues. Then I will close 
out the hearing and turn it over to 2 minutes of comments to 
those who want to make them. Mr. Tyson, we will start with you.
    Mr. Tyson. Sure. Well, to answer the first question, last 
school year, we had students with autism, cognitive 
disabilities, emotional behavior disabilities, specific 
learning disabilities, other health impairments, significant 
developmental delays, and speech and language impairments. So 
about 8 of the 12 possible diagnoses, we had them here.
    Some of the more severe students, such as students with 
moderate autism to severe autism, require one-on-one or small 
group instruction throughout most of the day. So we have two 
certified special education teachers who meet that need. We 
have another non-certified special education teacher who works 
with other students.
    We receive about $300,000 in Federal title money, so this 
is Federal money for low income students who are at least one 
grade level behind. And some of that staffing is used to meet 
the needs of the special education students.
    Senator Johnson. But it's not specifically for that 
purpose, you are just able to utilize it for that purpose.
    Mr. Tyson. Correct. You asked about the challenges. I mean, 
I think everybody in the room knows this, urban education in 
any context is phenomenally challenging. The single greatest 
challenge that we face is the fact that we have in aggregate a 
lower income population than the district and we are being 
asked to educate those children with about 70 percent of the 
dollars. When you do the math and you figure out, even if you 
add $2,000 more per child, the number of additional teachers 
that we would get is absolutely stunning.
    And so the challenge is how do you meet all of the needs 
because we want to meet the needs of every single child 
excellently, how do you do that on such a relative low dollar 
amount.
    Senator Johnson. And, again, the cost to educate a child in 
your system is slightly under $9,000, you get a $7,200 voucher?
    Mr. Tyson. Yes. The voucher is $7,200 and then we raise 
about $1,700 per child or about $1.5 million a year.
    Senator Johnson. That compares to a cost per pupil in 
Wisconsin in general of about $11,000, Milwaukee is about 
$12,000, correct?
    Mr. Tyson. Correct.
    Senator Johnson. Brother Bob, can you answer those two 
questions?
    Brother Smith. Yes, Senator Johnson. One of the things, and 
Dr. Witte said it earlier, that it's really important for 
people to know in education and in particular in urban schools, 
probably the top goal for many parents is safety and security 
of their children. There are parents who will bring a child to 
a private school and who will say my child has no special need 
when in fact the child is attention deficit disorder (ADD), 
attention deficit hyperactivity disorder (ADHD), dyslexic. It 
may be because I don't want the child on Ritalin or any other 
medication. It may be because I think the child is going to get 
labeled later on. It may be because I think you are going to 
try to kick my child out of school. What is important and what 
Messmer and other schools have done for years is we try to 
counsel parents and guardians. No. 1, we do a disservice to you 
and your child if your child cannot do college prep work if 
it's at the high school level or other things.
    That does not mean there are not ways, as Dr. Witte 
mentioned, if a child comes in deficient in credits, there's 
Saturday school, there's taking an eighth period, there are all 
types of things. But the child has to do it, the parent and 
guardian has to help provide transportation, et cetera. It can 
happen, but it's not cheap.
    What also is important is MPS has always referred in 
Milwaukee students to private schools. And I will be very 
frank. Sometimes it's done in a very collegial way, other times 
some of the State superintendents who have said that if 
religious schools were in the program, we would have Wiccan 
schools or David Koresh schools. Those same State 
superintendents called me when a student in MPS was expelled, 
for reasons I will not give, to say, Bob, can Messmer take this 
kid. What the superintendent did not say was, Bob, we will pay 
you for doing it. It means that the kid's low income, you take 
this kid and you pay for the kid. We took the kid because 
education is our business.
    I think at the end of the day, what is important to 
remember, too, is there are some students that even MPS or 
other public systems cannot educate. That's why we have a St. 
Francis School next to Cardinal Stritch, St. Amelia's, the 
former St. John's School. There are a number of places that 
students are educated that are paid for, but it's very 
expensive. And whether you are talking about Milwaukee, D.C., 
the North Mariana Islands. It's anywhere from $15,000 to 
$50,000. It's expensive. But the students need to be educated.
    Senator Johnson. OK. Well, again, I just want to thank all 
of our witnesses for taking the time and your thoughtful 
written and oral testimony and answering my questions. I could 
keep going on, but I want to be very respectful. We told St. 
Marcus we would close this out by 7, and I want to give members 
of the audience a chance.
    What I will do is formally close out the hearing here by 
saying that this hearing record will remain open for 15 days, 
until August 4 at 5 p.m., for the submission of statements and 
questions for the record. The Committee has already received a 
written statement for the record from Wisconsin Institute For 
Law and Liberty. We appreciate that. And I welcome statements 
for the record from anyone else who would like their voice 
heard as the committee considers these issues moving forward.
    This hearing is adjourned.
    [Formal hearing adjourned at 6:47 p.m.]
    Senator Johnson. Thanks. Now, what I would like to do, 
again, I want to be respectful of St. Marcus and to other 
people so everybody has a chance. So I would--and I'll time it. 
But if you could make your comment--first of all, tell us your 
name, and if you could spend 2 minutes. And, please, keep it 
within that timeframe and I will use that when you are getting 
past. Thank you.
    Ms. Christopherson Schmidt. You are asking the impossible 
from a teacher.
    Senator Johnson. Again, I would really ask you to speak 
very closely to the microphone so we all can hear you. So state 
your name and then speak closely to the microphone.
    Ms. Christopherson Schmidt. Joan Christopherson Schmidt. 
But for the last 60 years as a teacher here in Milwaukee and 
abroad, I have been known as Ms. Chris. And I didn't really 
mean to be the first speaker, but maybe I should be because I 
have probably taught longer than any of you.
    Sixty years is a long time, from kindergarten, early 
childhood, all the way up through the grades, through high 
school, college, university, television and radio, and even out 
in the country wherever kids needed to have some art and 
activities.
    I am a little confused at this hearing. Because I was 
brought up going to a public school that whatever we did in 
public office at Badger Girls State, it was for public good. 
Public good, which means all. And if I were still teaching, I 
would love to teach at your school, Dr. Tyson. Those children 
are very fortunate. The same for yours. But public school can't 
say it's either you be good or you are out. They would be sued.
    I thought, Senator, that your job was to defend public 
schools; and I do not see anyone here from the public school 
which is--we have to have by law, it's a civic right. And it 
has to take every child. And it's the base of our democracy. 
And if we take that away, even if we don't mean to, we are 
going to destroy our democracy and we are going to have the 
beginning of school and power from the top down.
    The Dean of Education at Edgewood College said it very 
well. He said the system that we are going into privatizing is 
here's the test; public schools, teach it; but we are not 
giving you the same tools.
    Let me tell you, the children in Milwaukee, the poor kids, 
many of them children raised by children, if they were given 
the same opportunities, the art, the music, the phy. ed., 
access to good books, and maybe breakfast and be sure that 
there's a home for them at night, they would rise like every 
child in any school. I have taught in both. I know. It just 
takes a connection between a teacher and one child. But when 
teachers in the public school have 30, 40, 50 kids in a class, 
they can't possibly go out, like I used to, into the core, into 
the homes, to see a parent and a child if they were not there.
    I know you want me to cutoff.
    Senator Johnson. No. I want to make sure everybody else has 
a chance to speak. So, when you see this--I really don't want 
to be banging the gavel on anybody. So, please, if you would 
let the next person come and speak.
    Really, we are giving 2 minutes per person so everybody has 
a chance. OK?
    Ms. Christopherson Schmidt. But please support public 
school.
    Senator Johnson. Yes. And, again, I would encourage you to 
submit a comment to the record. We would appreciate that. If 
you would like to submit a written comment for the record, you 
are happy----
    Ms. Christopherson Schmidt. I can't hear worth a hoot.
    Senator Johnson. I said we encourage you to submit a 
written statement for the record. OK?
    Sir. Go ahead.
    Mr. Pridemore. Thank you, Senator Johnson. My name is Don 
Pridemore.
    Anyway, I am a recently retired State legislator for 10 
years; and I have served on every education committee that the 
legislature has offered, including education reform. I have 
been to many MPS schools, choice schools, charter schools, 
Montessori schools. And my comment is that if you really want 
to judge how a student does in our system, all you have to do 
is talk to them, talk to their parents, see how excited they 
are to learn, what their plans are once they leave school. And 
that's the one fallacy that I see in our education system is 
that we don't track these kids once they leave school, what 
happens to them, how successful are they.
    To me that's much more important than a 1-day test to see 
what they may have learned or maybe they didn't sleep well the 
night before. That to me is the highest priority in terms of 
really judging how well our schools are doing regardless of 
where they are educated.
    But I support the Choice Program, I always have in the 
legislature. And what I see in students in a choice school is a 
level of character, a level of discipline, and just an 
excitement to have the opportunity to be in a school where 
teachers really care about them.
    And my question is of Dr. Witte, is your report available 
online or published at this point?
    Dr. Witte. The testimony here in a long form will be part 
of this record or I can send you the copy as well.
    Mr. Pridemore. Thank you.
    Senator Johnson. Thank you, Don. And, again, I really don't 
want to bang the gavel on anybody. When you see me pick it up, 
it's already been 2 minutes, so if you can wrap it up, I would 
appreciate it.
    Ms. Rebholz. Hi, my name is Cheryle Rebholz.
    This is a school setting. I am listening. Just recently, 
back home in my Mequon-Thiensville community, we had in our 
local newspaper, News Graphic, a lot of back-and-forth and op. 
ed. pieces about charter, choice, voucher, public. And I 
submitted something that I want to read. ``Education is the key 
that opens doors for young people and allows them to achieve 
their dreams. The latest U.S. ranking show teens are 25th in 
math, 17th in science and 14th in comparison to 30 more 
industrialized nations. Education Secretary Arnie Dunkin called 
the performance of American students a wake-up call.
    ``Wisconsin is one of the only States confronting and 
introducing reforms that can improve schools so they work 
better for students. Overhauling harmful policies and bringing 
commonsense changes to our public education increases the 
chance at the American dream. Clinging to outdated laws and 
policies protect the status quo.
    ``I support and endorse charter schools and vouchers for 
those families wanting to withdraw from failing public schools 
with the conditions that they are held to the same standards 
outlined by DPI, especially if they are to receive taxpayer 
funded money. Parents should not have to enroll their children 
in failing and unsafe public schools solely because of their 
geographical address. Local schools should offer an excellent 
diverse education in their community to eliminate the need for 
parents to outsource their children to other districts. Because 
this is not the case, charter schools are a solution.
    ``Charter schools on average receive $8,000 per pupil 
compared to my district of $10,796 in the Mequon-Thiensville 
School District and cannot levy taxes for the difference, 
unlike the public school system.
    ``It is not a lack of the money that equates to better 
education. Wisconsin is one of the top four States spending the 
most money on public education, yet Wisconsin is not in the top 
four when it comes to most proficient and successful academic 
outcomes. The return on our investment is lagging. Adapt, 
live--"
    Senator Johnson. Again, I would ask you to submit that for 
the record. You have it written, so I appreciate that. Thank 
you for your comment. Again, when I lift this up, I really 
don't want to bang the gavel. Hello.
    Ms. Miller. Yes. Hi, I am Erin Miller and I am autistic. I 
have been in both public and private schools. I have friends 
who send their children to both public and private schools. 
Including my former teacher who went to private school in the 
audience, as you can see here.
    My vent is not that private schools are bad. My question is 
in regards to our recent budget, with shoving things into the 
budget like specialty vouchers in the middle of the night. 
Again, my objective it's not public and private schools are 
bad. My objective is what is happening with our educational 
system and with our nation? And I am sorry to ramble. I may 
have to cutoff short. Thank you, sir.
    Senator Johnson. OK. Thank you. Next.
    Ms. Millner. My name is Lynn Millner. I think this panel is 
so stacked, it's all about vouchers and private schools. The 
two young women that you have here are, like--they excel in 
academics. Wouldn't it have been better if you took someone who 
was failing in MPS and then went to a voucher school and is now 
succeeding? I don't understand what you are showing. These 
women would succeed anywhere they went. Anyplace they would 
succeed. Because they are that kind of people.
    I also want to say so to my understanding, people get--kids 
who excel go to these schools, right? And if they don't fit in, 
if they don't do well enough, they don't get to stay there. And 
so what I understand is that in New Orleans, they don't have a 
public school system and they have thousands of kids who have 
been thrown out and have nowhere to go back to.
    Also, I am a retired MPS teacher. My daughter went to a 
parochial school for 4 years and she went to the Shorewood 
Public Schools. I am so insulted, I have heard over and over 
again that public school teachers don't care about their kids.
    I have worked with parochial school teachers, I have worked 
with--as a parent, I have worked with public school teachers. I 
think I am more caring than any of them. And I have been with 
public schools, Milwaukee Public School teachers. I don't 
understand that there is this big agreement that public schools 
are inferior. I don't know how you can say that.
    Senator Johnson. I don't believe anybody said that here.
    Ms. Millner. Yes, they did.
    Senator Johnson. And nobody denigrated teachers. But your 
time is----
    Ms. Millner. Oh, yes. I heard it several times.
    Senator Johnson [continuing]. Up. Again, so I would 
recommend you submit a statement for the record. Thank you.
    Ms. Millner. I will.
    Senator Johnson. Ma'am.
    Ms. Stevenson. My name is Degusta Stevenson, and my 
daughter attends St. Marcus. First of all, I want to say thank 
you to St. Marcus, it's a really good school.
    My only concern is that in the time that I have been here, 
and it hurts my heart to know that I had to fight with MPS 
because I am one of the parents that wanted her child to be 
recognized as a special education student. She was diagnosed 
with dyslexia, and she had a special education as far as with 
her math. But for whatever reason, when she came over to St. 
Marcus, there was no special education funding or program in 
place. They had to use other resources. And just like the 
gentleman, it hurt to know that I had to fight with MPS, 
Jennifer Powell, Dennis Duff who is DPI, Christina Flood who is 
also over the section of special education; and even went to 
the school board. And Sandy O'Brien here can attest because I 
called her so much. And when I got over here, we had to put 
other resources in place.
    That's not fair. My daughter deserves an equal education 
coming from MPS over to a choice school. I made that decision 
because if I had to go out of my pocket to pay for things that 
I wanted to make sure she was getting the best that she can, 
and she's entitled to that.
    Someone had mentioned up here about the American Disability 
Act. One of the lines state in the parent resource as far as 
that you have to ensure that everyone is entitled to the 
freedom and equality of education. Why didn't you or have them 
address the questions and not addressing it as to how you plan 
on addressing the lack of funding for the choice schools to 
ensure that every student, regardless of their disability, is 
being serviced at the proper level to excel as other students. 
That's my question.
    Senator Johnson. Thank you. That was a purpose of the 
hearing was to kind of lay out those realities. So thank you 
very much. I appreciate it. Sir.
    Mr. Stroebel. Good evening. I am Duey Stroebel. I am the 
State senator for the 20th Senate District. And as an elected 
official, I don't specifically advocate for public schools, I 
don't specifically advocate for private schools. I specifically 
advocate for the kids in the system that we want to get a good 
education. And I think we need to understand that it's not one 
size fits all. And we need to know what's best for each 
individual child here.
    Now, we have great public schools. We also have great 
voucher schools. We have great charter schools. We have options 
out there. And I think options are what we want. And I think 
the studies have shown that when you have options, you raise 
all boats and they are all better options.
    And so that's what I think we have to continue to advocate 
for, that competition which makes everyone better, as the 
studies have shown.
    And I think what I would like to see in the future is a 
little more--I don't think the vouchers are necessarily looking 
for, cheerleaders in the private sector. But let's have a 
little less pushing back on them so they have a chance to 
thrive just the same.
    When I see what goes on here in Milwaukee versus some of 
our charter and our choice schools, I mean, they are fighting a 
battle every day to succeed. I think if everybody could just 
step back, understand that there is a route for both private 
and public schools and that together when they both succeed, 
they will both succeed to a greater degree. I think we both 
understand that we both sit back and we don't fight on that 
basis, but move ahead together, I think we are going to do 
great things for Wisconsin and great things for the city. 
That's the way I see it.
    So, again, I appreciate the opportunity to speak here. And 
let's all, again, work together and make this whole system 
better on both ends of the spectrum. Thank you.
    Senator Johnson. Thank you, Senator. Anybody else? OK.
    Please. I didn't know whether you were just standing back 
there.
    Female Speaker. Good evening, I just appreciate the 
opportunity to speak to you. I had not planned on speaking, so 
I felt compelled to come up here.
    I am an alumna of Milwaukee Public Schools. I went to UW-
Madison. And I have three children who attend Milwaukee Public 
Schools right now. I am not a proponent for public money being 
funneled out, it's been over a billion dollars since the start 
of this that comes out of public schools. We are essentially 
funding two, three, now maybe with virtual schools having no 
cap, maybe four new school systems.
    At some point the public schools will not be financially 
solvent. We need a certain amount of students involved in that 
to keep it going. Charter schools, private schools, they can 
pick their students. They get counseled out. And that money 
doesn't follow the student. The money stays at the school. So 
that's an extra disadvantage. It's a funding flaw that I gave 
testimony to already in the last budget at the Capitol.
    Public dollars support public schools as a civil right. And 
my children, they have done without librarians, without art, 
without music, because of cuts and because of money being 
funneled out of the public system.
    And I echo the sentiments of the other women that were up 
here. These women who are up on the panel, they would have 
succeeded. I mean, my children are going to succeed from MPS. 
There are children who aren't--and there are also shining star 
schools in MPS, as there are--maybe St. Marcus School is doing 
better than some of the other voucher schools. My children's K-
8 school, they have almost 400 children there, they have a wait 
list of over 100 kids to get in. So you can pick those same 
kinds of things out in public schools.
    I don't like to see that money coming out of the public 
school system to fund another--I think we should--all that 
money should go to resources to support all the children, the 
children of Milwaukee. Kids who come to St. Marcus have parents 
who are concerned about their education. A lot of kids in MPS, 
their parents are 
not--they are nonexistent. That's all I wanted to say. Thank 
you for your time.
    Senator Johnson. Thank you for your comments.
    Again, I want to thank everybody for taking the time here 
to attend. I hope you found it informative. Again, I encourage 
you, if you have any written comments you want to submit to the 
record, it will be open until August 4th at 5 p.m.
    Again, thank you to all of our panel here, and have a very 
good evening. Take care.
    [Whereupon, at 7:07 p.m., the Committee was adjourned.]






                            A P P E N D I X

                              ----------                              




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
